HHS/OIG, Audit -"Audit of the Youth Shelters and Family Services' Transitional Living Program Grant (06-CX-0491)"A-06-01-00074
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of the Youth Shelters and Family Services' Transitional Living Program
Grant, (06-CX-0491)," (A-06-01-00074)
December 4, 2001
Complete
Text of Report is available in PDF format (589 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report provides the results of our audit of the Administration for
Children and Families' grant to the Youth Shelters and Family Services (YSFS) for
the Transitional Living Program. This grant covered the 3-year period November
1, 1996 through October 31, 1999. The objectives of the audit were to determine
if YSFS: (1) achieved the grant objectives, (2) complied with standard terms and
conditions of the grant, and (3) maintained a system of accounting and internal
controls capable of managing Federal funds. The YSFS was able to achieve all grant
objectives to assist homeless youth, 16 to 21 years of age. Also, YSFS generally
complied with the standard terms and conditions of the grant as well as established
and followed accounting procedures enabling it to manage and account for Federal
funds. However, our audit of YSFS' accounting controls revealed weaknesses that
need to be corrected.  The YSFS generally agreed with our recommendations
and provided information on steps it is or has already taken to comply with the
recommendations. However, we continue to believe that YSFS needs to ensure the
accuracy of its SF-269s and strengthen controls over fixed assets.